                                                                         Office ofInspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528




                                                                          Homeland
                                                                          Security
                                                  August 5,2011


MEMORANDUM FOR:                     Major P. (Phil) May
                                    Regional Administrat?; y;;0r.
                                                             .
                                    FEMA Region IV      ~

FROM:                               Matt Jadacki       0~ V
                                                          V _
                                    Assistant Inspector General
                                    Office of Emergency Management Oversight

SUBJECT:                            FEMA Public Assistance Grant Funds Awarded to
                                     GulfShores Utilities, GulfShores, Alabama
                                    Public Assistance Identification Number 003-UB35S-00
                                    FEMA Disaster Number 1549-DR-AL
                                    Audit Report Number DA-11-20

We audited public assistance grant funds awarded to Gulf Shores Utilities (Utility), Gulf Shores,
Alabama. The audit objective was to determine whether the Utility accounted for and expended
Federal Emergency Management Agency (FEMA) grant funds according to federal regulations
and FEMA guidelines.

The Utility received a public assistance award totaling $7.6 million! from Alabama Emergency
Management Agency (AEMA), a FEMA grantee, for damages related to Hurricane Ivan, which
occurred in September 2004. The award provided 100% FEMA funding for the first 72 hours of
debris removal and emergency protective measures undertaken during the disaster and 90%
funding thereafter. The award also provided 90% FEMA funding for repairs to facilities and
other public buildings.

We reviewed costs totaling $7.4 million claimed under four large projects, as shown in table 1 on
the following page. The audit covered the period from September 15,2004, to May 7, 2009,
during which the Utility received $6.7 million ofFEMA funds under the projects reviewed. At
the time of our audit, the Utility had completed all projects and had submitted its final claim on
expenditures to AEMA.




1 The award consisted of five large projects and three small projects. Federal regulations in effect at the time of
Hurricane Ivan set the large project threshold at $54,100.
                               Table 1: Schedule of Audited Projects
                         Project          Amount               Amount
                         Number           Awarded             Claimed
                          2965             $ 633,182              $ 633,182
                          3037                334,620                334,620
                          3090              5,897,682              5,897,682
                          3148                540,868                540,868
                          Total            $7,406,352             $7,406,352

We conducted this performance audit pursuant to the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based upon our audit objective. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based
upon our audit objective. We conducted this audit according to the statutes, regulations, and
FEMA policies and guidelines in effect at the time of the disaster.

We reviewed judgmentally selected samples of project costs (generally based on dollar value);
interviewed Utility, AEMA, and FEMA personnel; reviewed the Utility’s disaster grant
accounting system and contracting policies and procedures; reviewed applicable federal
regulations and FEMA guidelines; and performed other procedures considered necessary to
accomplish our audit objective. We did not assess the adequacy of the Utility’s internal controls
applicable to its grant activities because it was not necessary to accomplish our objective. We
did, however, gain an understanding of the Utility’s method of grant accounting and its policies
and procedures for administering the activities provided for under the FEMA award.


                                      RESULTS OF AUDIT

We determined that the Utility accounted for and expended FEMA funds according to federal
regulations and FEMA guidelines.


                           DISCUSSION WITH MANAGEMENT

We discussed the audit results with Utility, FEMA, and AEMA officials on June 29, 2011.
Because the audit did not identify issues requiring further action from FEMA, we consider this
audit closed. Significant contributors to this report were David Kimble, Adrianne Bryant, and
Jerry Aubin.

Consistent with our responsibility under the Inspector General Act, we are providing copies of our
report to appropriate congressional committees with oversight and appropriation responsibility
over the Department of Homeland Security. To promote transparency, this report will be posted to
our website, with the exception of sensitive information identified by your office.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
David Kimble at (404) 832-6701.

                                                   2

cc:	   Audit Liaison, FEMA Region IV
       Audit Liaison, FEMA (Job Code G-11-019)
       Audit Liaison, DHS




                                          3
